                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street, N.E.
                                                       Washington, DC 20002




                       Refurbished Tractors Unacceptable and Unsafe
                                   Case Number 08-017
                                      May 27, 2010

A source reported that refurbished tractors at Ivy City yards that were purchased from an outside
vendor for $21,000 were unacceptable and unsafe. Interviews confirmed that the refurbished
tractors were deficient. Amtrak had already cut the check by the time it was determined that the
equipment was inferior. The seller refused to accept return of the equipment. A demand for
repayment was sent to the company.
